LZOZ/IO/ZO

20"
No.

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U s'
FILED

APR 2 8 2021
SESeOFTMgCLfflK
— PETITIONER
(Your Name)
r -Vf,

^cvC

Ak^vC

VmV^g^g^SPONnFNTfS)

ON PETITION FOR A WRIT OF CERTIORARI TO

xks\\g

^jDyKVc^ Kwa\S

tf~XW

Xxoo\V

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR^CASE)
PETITION FOR WRIT OF CERTIORARI

(Address)

a^fA\g.,XiV /
(City, State, Zip Code)

(Phone Number)

j

LZOZ/10/30

QUESTION(S) PRESENTED

ComA-A ^Wk ,s\w*
Vo\ OCXSSS \o <xv\^l vw<U?f Q{
•%b\V)XO!i A ; <N(\\%Sfcfe, W>\$tf\ -Vf\!& Vfjwt \)JQo4iX CTO'SLCNiV^ <K \0^\f\\K>L^U)^; "5'Wft-S
«w\ co\S2.of
OAY •S vV
CGwsnvffW
W
e<
v
^ Wc <a<k\ -%sl "oof^mCovjfA
a
\\)IL V OiAo^cR <Q5CU^sl
ck

\w

5>V

1 ^ %Ao X^oui Vw 3ase<k 5' 'WWa «*VA\ on
mJos Nfos^vxie^
^

IZOZ/IO/ZO

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

V

izoz/io/zo

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a wit of certiorari issue to review the judgment below.
OPINIONS BELOW
['V^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A.

to

the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[S/fis unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the___________________________
.appears -at-Appendix-... ~
t^)-the-petitiemand .is[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

IZOZ/IO/ZO

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[>/i All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment, is the subject of this
petition is as follows:

RELATED CASES

izoz/lo/zo

JURISDICTION
h/]'For cases from federal courts;
The date on which the United States Court of Appeals decided my case

was \W Yh I IpjO______
[-/So petition for rehearing

was timely filed in my case.

[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____ __________________ _ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)in
Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

C;_____

STATEMENT OF THE CASE
Mr. Morales appeals the voluntariness of his guilty plea, which he
entered only after the district court refused to give him time to retain
new counsel, compelling him to proceed to trial with counsel in whom
he had lost all faith.
1.

Procedural History

On January 8, 2019, a federal grand jury returned a one-count
indictment against Angel Morales and one other defendant charging
them with conspiracy to distribute or possess with the intent to
distribute 500 grams or more of methamphetamine, in violation of 21
U.S.C. §§ 841(a)(1), 841(b)(1)(A), and 846. Mr. Morales retained Joseph
S. Friedberg and Coley Grostyan to represent him. BCD 22, 23.
On March 5, 2019, the grand jury superseded the indictment to
add two additional defendants to the conspiracy charge.
On June 24, 2019, a jury was empaneled and Mr. Morales’ jury
trial began. On June 28, 2019, after five days of trial, the jury retired to
deliberate. On July 1, 2019, the jury returned, unable to reach a verdict.
The district court declared a mistrial. DCD 165.

The district court scheduled the retrial for September 23, 2019.
On September 18 and 19, 2019. Mr. Morales, acting pro se, sent three
emails to the Court requesting leave to seek new counsel because “1
don t trust them or feel comfortable with them anymore.” BCD 232, 233;
Addendum at 8-10 (hereinafter “A”).
On September 20, 2019, the court held a pretrial conference. At
the outset, the Court conducted an ex parte colloquy with Mr. Morales
and defense counsel to inquire into the basis for Mr. Morales’
dissatisfaction with counsel. After a lengthy inquiry, the court told Mr.
Morales he was free to retain new counsel, but it would not continue the
September 23 trial date to allow new counsel to prepare. “You have
every right if you wish to replace Mr. Friedberg, but you'd have to do so
with an attorney who feels like he could get prepared over the
weekend.” Transcript of Pretrial Conference, BCD 311, at 27
(hereinafter “PC”).
Hours later, on September 20, 2019, Mr. Morales entered a guilty
plea to count 1 of the Superseding Indictment.
On January 21, 2020, the district court sentenced Mr. Morales to
180 months in custody followed by five years of supervised release.

y

This appeal followed.
2.

The Offense Conduct

On December 10, 2018, law enforcement stopped Brittany Hass
and Dalian Castillo-Bolanos in a rental car in Texas County, Oklahoma.
PSR f 10. After a drug dog alerted to the presence of controlled
substances in the car, the police searched the vehicle and discovered 30
sealed packages of methamphetamine, one pound each, hidden in the
vehicle. % 10.
Hass and Castillo-Bolanos told the DEA the methamphetamine
was en route to Minnesota where it was to be delivered to Luis
Barreras. f 11. The DEA arranged to make a controlled delivery. They
swapped the methamphetamine with a simulated substance and put
the 30 bags into a suitcase with a location tracking device,

11.

On December 11, 2018, Castillo-Bolanos delivered the suitcase to
Barreras in Minneapolis, Minnesota. Law enforcement conducted
surveillance of the exchange. As law enforcement watched, Barreras
drove with the suitcase to a nearby apartment building". They saw Mr.
Morales arrive in a separate vehicle. % 13. He retrieved the suitcase
from Barreras and entered the building with it. Id. When he exited the

o

building a few minutes later without the suitcase, he was arrested. ^
14. In a subsequent search, law enforcement discovered the suitcase
with the fake drugs in the storage locker assigned to Mr. Morales’
apartment,
3.

16. One of the plastic packages had been torn open.
Trial Testimony

At trial, Mr. Morales denied he was part of a conspiracy to
distribute methamphetamine with Castillo-Bolonos, Barreras or anyone
else. T. 629. Rather, Mr. Morales testified that since 2017, he sold small
quantities of cocaine to others in clubs, a completely separate
conspiracy. T. 598-599, 603. This activity explained incriminating text
messages discovered by the government.
Morales testified that on December 11, 2018, his brother called
Mm to say Barreras, whom Mr. Morales knew by the nickname Gordo,
had been robbed. T. 616. Gordo was at their mother’s house, the brother
said, and Morales should meet him there. Id. Mr. Morales drove to his
mother’s house and saw Gordo in a truck parked in front. Morales went
to the vehicle and saw Gordo with a plastic bag between his legs. The
bag was tom open, and he could see it was rock salt, not
methamphetamine. T. 618-19. Gordo kept telling Mr. Morales that he

4

had been robbed, and the bags contained only salt. T. 622. Gordo put
the ripped bag back in the suitcase and asked Mr. Morales to hold, it
while he tried to find the man who had delivered the fake drugs to him.
T. 622-23. Morales took the suitcase and, without examining it, stashed
it in-the storage locker of his mother’s apartment. T. 623. When he left
the apartment building, he was arrested.
On July 1, 2019, the district court declared a mistrial, after the
jury was unable to reach a verdict.
4.

Request for a Continuance to Retain New Counsel

Following trial, relations between Mr. Morales and Ins counsel
soured. On September 18 and 19, 2019, Mr. Morales, acting pro se, sent
three emails to the district court, asking for leave to retain new counsel
because “I don’t trust them or feel comfortable with them anymore.” A
8-9.
On September 20, 2019, the court conducted a pretrial conference,
during which it made inquiry about the breakdown in the attorneyclient relationship. Mr. Morales asked the court to continue trial so he
could retain new counsel. He had a litany of complaints about his
attorneys. First, they had failed to provide him with a copy of the trial

5

transcript, other than his own testimony. Transcript of Pretrial
Conference (Sept. 20, 2019) at 4 (hereinafter “PC5’).1 The rest, he was
told, would cost him $6000-$7000. PC 6. Mr. Morales said he needed the
transcripts “to go over my case and what happened at the last trial and
compare with the motion of discovery that I have.” Id. In addition, he
complained he had not received the new discovery the government had
produced, which purportedly contradicted some of Mr. Morales’
testimony at the first trial. PC 6-7. “It’s concerning,” Mr. Morales said.
PC 9.
Mr. Morales’ principal complaint was that Mr. Friedberg had
failed adequately to address his concerns that the plastic hag that had
been ripped open and offered in evidence at tried was not the same
plastic bag that had been seized by law enforcement on December 11,
2018 from Mr. Morales’ mothers’ storage locker. According to Mr.
Morales, the government had altered the bag. PC 14. The actual bag.
had it been tested, would have revealed that only Gordo’s DNA was on

1 The district court’s inquiry was conducted ex parte, outside the
presence of government counsel. That portion of the transcript was
sealed in the district court and filed separately. DCD 311.
6

the bag, providing further support for Mr. Morales’ trial testimony that
he had never examined or handled the bags.
Mr. Friedberg had arranged for the bag to be sent to a forensic lab
in Chicago for independent testing. DCD 219, 226. The expert hired by
Mr. Friedberg opined that the bag depicted in the photographs of the
search was almost certainly the same bag which the government had
offered in evidence. PC 12.
Mr. Morales was not satisfied. He complained that Mr. Friedberg's
expert had not prepared a report, and he had doubts about whether Mr.
Friedberg had sent the correct photographs to complete the comparison.
PC 10-11, 14. Given his concerns, Mr. Morales took steps, without
counsel’s assistance or knowledge, to hire his own forensic expert to
complete a supplemental evaluation. PC 13.
The disagreement between client and counsel caused a rift in their
relationship. Mr. Morales complained that “[ejvery time I bring up this
bag issue I’m getting screamed at.” PC 15. Mr. Friedberg agreed that
his relationship with Mr. Morales had deteriorated into an “adversarial
relationship” as a result of which Mr. Morales would no longer answer
his questions. PC 8. Pie conceded, “i have screamed, and i have said

7

‘Forget the goddamned bags.’ And I have been very animated about it.
And, you know, I can understand how that would be offensive to Mr.
Morales.” PC 15-16.
Given Mr. Friedberg’s vehement reaction, Mr. Morales concluded
his attorney and the government “were working together.” PC 15. He
explained,
Pm just really concerned about the conflict of interest. If it
has something to do with him getting mad about me talking
about the bag, I’ve not seen the report. I want to see it. I
have not received no confirmation from [the forensic expert].
So to me all that raises more red flags. Every time I mention
the bag, he screams at me. I feel that he’s trying to not
expose the government, is what 1 feel. . . .
PC 19-20. Mr. Morales continued, “[!]£ his conflict of interest has
something to do with Mm not wanting to pressure the bag, this is why
I’ve gone to other experts about it, because I’ve not seen the report, I’ve
not.” PC 20.
In sum, Mr. Morales concluded, “i just can’t trust my attorneys or
feel comfortable. . .

PC 22. Later, he reiterated:

Just that in my heart I really feel I can’t trust or feel
comfortable with the attorneys I have, and I would like to
seek new attorneys so I can feel comfortable and go through
my case and have all the paperwork available to me to work
on my case.

8

PC 27.
Although noting Mr. Morales’ sincerity when he said he was not
comfortable with his attorneys, the district court refused to continue the
trial to permit Mr. Morales time to retain new counsel PC 27-28. Mr.
Morales’ concerns, the court said, ranged from trivial to “really
irrational.” PC 28. Mr. Morales was free, the court noted, to fire his
attorneys and retain new ones, but the court would not postpone the
trial to permit time for new counsel to prepare. PC 28, 30-31. “It’s too
late. It’s the day before trial.” PC 31.
O'.

Guilty Plea

Five hours later, Mr. Morales was back in court, this time to plead
guilty to the indictment.2 This represented a major change of heart from
his position only hours earlier, when he complained bitterly that his
•lawyers were pressuring him to take a more attractive offer than the
one he ultimately accepted. During the pretrial conference, Mr. Morales
complained that Mr. Friedberg pressured him to take a deal of 10 years,
which he took as further evidence he was 'working with the government.

2 The pretrial conference ended at 10:39 am. The guilty plea hearing
began at 3:30 pm that same day. PC 75.
9

PC 15. Mr. Friedberg agreed that he told Mr. Morales he thought he
could get a 10 year deal, hut Morales was adamant “No, 1 will not take a
deal.” PC 18. See also A 10 (noting that Morales had rejected 10-year
deal).
Subsequently, the government told the court that it had made a
plea offer in which it would agree not to recommend a sentence in
excess of 15 'years, while Mr. Morales could ask the court for 10. The
court would be free to impose any sentence it chose. Mr. Morales
confirmed he had rejected that offer. PC 71.
Now, Mr. Morales had agreed to plead guilty under Fed. It. Grim.
P. 11(c)(1)(C) to a binding recommendation of 15 years. DCD 239 at f 8.
Mr. Morales admitted he had been involved in a conspiracy with Gordo
and others to distribute methamphetamine in excess of 500 grams. PC
102. He admitted that on December 11, 2018, he received a 30 pound
shipment of fake methamphetamine, but he had expected real
methamphetamine. PC 103. Mr. Morales intended to distribute the
drugs after receiving it. Id. Finally, Mr. Morales admitted that his trial
testimony to the contrary had been false. PC 104.

10

The plea agreement included an appeal waiver by which Mr.
Morales 'waived “all rights conferred by 18 U.S.C. § 3742 to appeal his
sentence, unless the Court sentences him to a term of imprisonment
greater than 180 months’ imprisonment.” DCD 239 f 12.
6.

Sentencing

On January 21, 2020, the district court sentenced Mr. Morales to
180 months, in accordance with the plea agreement, followed by a five
year term of supervised release.
SUMMARY OF ARGUMENT
The appeal waiver in the plea agreement pertains only to
sentencing appeals under 18 U.S.C. § 3742. This is not a sentencing
appeal and so the appeal waiver does not apply. In any event, the
appeal waiver was entered into involuntarily as part oi the plea
agreement.
The district court abused its discretion in denying Mr. Morales’
motion to continue trial so he could retain new counsel. Mr. Morales'
dissatisfaction with his attorneys was justifiable. After the mistrial, his
lawyers failed to provide him with new discovery, failed to provide him
with the complete transcript from the first trial, and failed to obtain a

11

report of the forensic evaluation of the plastic bag found in Mr. Morales’
constructive possession. As his attorney confbineh. their relationship
had become adversarial and their communications had disintegrated
into shouting matches. Mr. Morales had lost ail confidence in Ms
attorneys and had come to believe they were working together with the
government.
was unreasonable to expect that Mr, Morales
could centime to be represented by counsel of record. By denying Ms
me .cn
ei

continue trial, the court left .Mu with th untenable choice of

:,er proceeding to trial witn a attorney whom he could no longer

trust or retaining new counsel who would nci, be preparer to try the
case. Instead. Mr, Morales pleader guilty, accepting a deal
4

substantially worse than Me one ne hau sain was unacceptable only
hours earlier. Mr. Morales’ guilty plea was involuntary as a result.

izozno/zo

REASONS FOR GRANTING THE PETITION

*

cc<w\c\oV

ms

COSCj

\R \1M\ qV Q'L s\\^Cf.

°W*\W |JWiW^lVO o^ .NlicC N\c\ser "^O
Acw^irxA \jJ^ <N\^.W\CQ. •
^KsW'f CO<wAA PW^KU \X\-%Ml 'OCNOCt^A O'

VtW^OW %\% ccxfoAeii Vs <(\vs\(^4 Vn\ ccw«\^\4
v y cxomv o<\Vt Scm NssviiVvLCorfeM 1'3 W,,
$.crf\\4 Vt Vk VAX Wv co«vf(\vj<\vc^\on uj Aa Nva C$w
/

“oOVl C(Xf\ OvQ^SC (KWXXTtoAc Xj «NNj ^oM. *

, "X «A VV o^M Vc a 'C'S&J VvcX o-f W \xsstv' -\\wl X 50X
\a)AX%sAA\5v <<6KsVW^ (K\ \«S
v
v
0T\ \sjnjyC\V Vw\vW\ 00A \\ \

IZOZliOIZO

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

jJl
[/

Date:

